\

n ,"v;P H n n

CASE NO.

I
l

IN THE SUPREME COURT OF THE UNITED STATES

I

deryl dude nelson

Petitioner/

S;;pi

vJ' ;’.t, U.S.
f ii

,*

v

SEP 1 ? 2020

MIKE BROWN/ Acting Warden/
Respondent

OFFICE Or 7HF CIxnK

On Petition for Writ of Certiorari to
the United States Court of Appeals Sixth Circuit

PETITION FOR WRIT OF CERTIORARI

TABLE OF CONTENTS
PAGES:
Question Presented For Review
Table of Authorities.............
Reference to Opinions Below..
State of Jurisdiction............
Constitutional Provisions....
Background of Facts
State of the Case

iii
iv
v
1
2
i

4
Argument (I)

>

initiating the prosecution against petitioner UJ
overlooking the district court’s reasoning contrary to the
law/authority it cited, that it was without authority to
GRANT petitioner relief from judgment because the fraud
was not committed by a federal officer?
Argument II

9

Did the circuit court commit Reversible error and grossly
violate petitioner's Due Process when it overlooked the
record and evidence that petitioner presented to support
his request to disqualify the district court’s judge for
ignoring the Michigan Court of Appeals ex post facto Law
used to affirm his conviction?
12
Conclusion

APPENDIX:
order denying certificate of
United States Court of Appeals June 16, 2020,
appealability Apx. A
February 14, 2020, order denying Motion to
United States District Court's
Recuse Apx. B(l)
February 14, 2020, order denying Motion for
United States District Court's
relief from judgment Apx. B(2)
Court of Appeal July 10, 2020, orders denying rehearing en banc.
United States
Apx. c(l)
United States Court of Appeal July 30, 2020, order denying rehearing en banc
Apx. C(2)
EXHIBIT:
Transcript Ercerpt, July 18, 2014 (Motion Hearing) Ex. (1)
Transcript Excerpt, July 31, 2014 {direct examination 6f Tr^per Keely Cochran
and Felony Complaint) Ex. (2)
Opinion Excerpt, January 12, 2016 (Michigan Court of Appeal pp 6, 7, and 11)
Ex. (3)
Petitioner's January 17, 2020 Motion to Recuse Ex. (4)

QUESTION(S) PRESENTED FOR REVIEW

Did the Circuit Court

e-lt . ^^erlccS" t^f dL«S ££S

fraud on the court by srgnrng the van

court', reaaoning contrary to

S£S
Did the Circuit
Did tne Lircuii.

court commit a reversible error and grossly violate
. ~>orinnTc«i the record and evidence that

- j- ««rsf =*2

judge for
affirm his conviction?

i

TABLE OF AUTHORITIES
PAGES:

CASE:
Bouie v Columbia 378 U.S. 347, 12 LEd 894, 84 SCt 1697 (1964)
Buall v Anderson 48 F. App'x 491, 499 (6th Cir 2002) « • a • « 4 o
Ex parte Lange 85 (18 Wall) 163; 21 LEd 872 (1973)..

9
3,5,6,12
8

8
Ex parte Siebold 100 U.S. 371 (1880)
7,9
Gluaksman v Henkel 221 U.S. 508; 31 SCt 704; 55 LEd 80 at 5 (1911)
8
Hamilton v McCotter 772 F2d 171, 182, 183, 184, 185 (5th Cir. 1985)
Hazel-Atlass Glass Co. v Hartford-Etnpire Co. 332 U.S. 238, 244 (1949).6,8,9,12
7
Herrera v Collins 506 U.S. 390, 400; 122 LEd 2d 203; 113 SCt 853 (1993)
7
Kalina v Fletcher 522 U.S. 118, 122 (1997)........
10
Liteky v United States 510 U.S. 540, 555 (1994)
9
Olsen v McFaul 843 F2d 918, 931 (6th Cir. 1988)
2
Stone v Powell 428 U.S. 465, 494-95 (1976)
Teva Pharma, USA Inc. v Sandoz Inc. 574 U.S. 318; 135 SCt 831; 190 LEd 2d 719
5
2d 719 (2015)..
United States v Beggerly 524 US 38, 29; 118 SCt 1862; 141 LEd 2d 32 (1988)...6
3
Workman v Bell 227 F3d 331, 336, 341 (6th Cir 2000) en banc
CONSTITUTION:
Fourth Amendment....

...1,7,9/12
..6,7,10,11
1,6,7,10,11

Fifth Amendment........
Fourteenth Amendment
STATUTE:
28 USC § 1254(1)

\

28 USC § 455(a).
18 USC § 1962(d)
18 USC § 2384...
RULE:
Rule 60(b)............. • •••
Rule 60(b)(1)...............
Fed R. Civ. P 52(a)(6)

2,10
4
4

2,3,8
3
5,6

xi

REFERENCE TO OPINIONS BELOW

The June 16 / 2020 opinion of the United States Court of Appeal for the
Sixth Circuit. Apx. A. The July 10, 2020, Onited states Court of Appeals for
the Sixth circuit order denying rehearing en banc. Apx C(l). The July 30,
2020/ United States Court of Appeals for the Sixth Circuit order denying
rehearing en banc. Case No. 20-1190-1210. Apx C(2).
The February 14/ 2020/ opinion and order of the United States Districu
Court Eastern District of Michigan denying the motion to disqualify. Case No.
2:16-cv-12260. Apx B(l).
The February 14, 2020 opinion and order of the United States District
Court Eastern District of Michigan denying the motion for relief from
judgment. Apx B(2).
The above-stated opinions and orders are all reproduced in the appendix
of this petition.

••*
m

STATEMENT OF JURISDICTION

This matter is before this Honorable Court pursuant to a petition for
writ of certiorari. Petitioner seeks review of the June 16/ 2020# order
denying petitioner certificate of appealbility from the United States Court of
Appeals for the Sixth Circuit and its July 10/ 2020 and July 30/ 2020, orders
has lawful jurisdiction to entertain
denying rehearing en banc. This Court-net
this petition for writ of certiorari pursuant to 28 U.S.C. § 1254(1).

iv

CONSTITUTIONAL PROVISIONS

U.S. Constitution Amendment IV
The rioht of people to be secure in their persons, houses/
papers^ and effects, against unreasonable searches an
seizures, shall not be violated, and no Warrant ®ha^
issue, but upon probable cause, supported by Oath or
affirmation, and particularly . describing the place to
searched, and the person or thing to be seized.
U.S. Constitution Amendment V
No person shall be held to answer for a capital, or
otherwise infamous crimes, unless on a presentment or
indictment of a Grand Jury, except in cases arising m the
land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
oerson be subject for the same offense m any criminal
Sse to be a witness against himself, not be deprived of
without due process of law;
nof61 shallrtprivateP property be taken for public use,
without just compensation.
U.S Constitution Amendment XIV Section 1
All persons born or naturalized in the United States, and
subject to the jurisdiction thereof, are citizens of the
uSted States id of the state fereihn.^h%a^f ^idge
state shall make or enforce any law which shall abrioge
?he privileges or immunities of citizens of theUni.ed
states* not shall any state deprive any person of life,
liberty, or property, without due process of law; notdeny
to any person within its jurisdiction the equal protection
of laws.

v

BACKGftOOND OP PACTS
Petitioner Nelson was tried in Wayne County (Michigan) Circuit Court on
charges of second-degree murder and reckless driving causing death* Petitioner
Nelson challenged the trial court's jurisdiction and authority to try hi*
without a sworn complaint mandatory to bring the case within the provision o£
law* Exhibit (l)pp* 3-15.
Not only did the motion hearing reveal that no sworn complaint existed it
not identified as the
revealed that the complaint was signed by someone
complaint witness in the complaint. Exhibit (1) p. 8. The trial court did not
establish nor deny that it lacked jurisdiction. However r the defense counsel
had gave consent to its jurisdiction and illegally proceeded to trial* Exhibit
(1) p. 13*
During trial, state Trooper Sergeant Keely Cochran identified in the
criminal complaint as the complaining witness appeared in court as a witness
not for the prosecutor, but for the defense and denied making the complaint
against Petitioner Nelson. Exhibit (2) p. 107. Petitioner was thereafter
convicted. {The essential element of forgery was before the court).
Petitioner Nelson appealed his illegal conviction directly to the
Michigan Court of Appeal * Petitioner Nelson asserted that no sworn complaint
existed and that the court officer signed the complaint as the complaining
witness and that the trial court lacked subject-matter jurisdiction and its
judgment is null and void. (The essential element of forgery was before the
court).
The Michigan Court of Appeals did not deny that the complaint was not
sworn to. However, contrary to state law and to the Fourth and Fourteenth
Amendment to the united States Constitution it stated that the signed
complaint met the statutory requirement for initiating the prosecution and for

1

the issuance for an arrest warrant. Ex H!)' f>p. £>j 1' The Court affirmed
petitioner's conviction.____
Petitioner Nelson sought denied leave to appeal by the Michigan Supreme
Court.
Petitioner Nelson sought from the United States District Court habeas
relief/ for among other things, that the state trial court lacked subject
jurisdiction because the complaint was a forgery and unsworn to. The district
court applied Stone v Powell 428 U.S . 465, 494-95 (1976), to deny petitioner's
jurisdiction claim and habeas relief . The district court did not address
whether or not the complaint was sworn to or forged.

STATEMENT OF THE CASE
Petitioner sought a certificate of appealability from the United States
Court of Appeals for the Sixth Circuit from the Michigan Eastern United States
District Court pursuant to RULE 60(b) motion for relief from judgment and
pursuant to 28 U.S.C. § 455(a) motion to recuse.. The cases were consolidated
and denied.
For case no 20-1190. petitioner among other things, raised claim (1) that
the Wayne County's assistant prosecutor committed "fraud on the court" by
forging the signature of the complaining witness on a criminal complaint
initiating the prosecution and claim (2) that the district court committed
fraud on the court when it willfully ignored that petitioner raised a "forged
complaint" argument during habeas review.
the district court for
For case no 20-1210 petitioner petitioned to move
a new judge on the ground that the judge was partial and ignored, turning a
blind eye to the Michigan Court of Appeals use of an ex post facto law to
affirm petitioner's illegal conviction. Ex. 4 . The district court denied the
motion to recuse without denying the allegations. Apx. B(l)

The district

court contended that petitioner's claim

(2)

"forged

complaint" argument is barred pursuant to RULE 60(b)(1) and declined to go
into the merit of the claim. However, the district court did make fact
findings for claim (1) "fraud on the court" and determined that the assistant
prosecutor did commit fraud on the court by signing the various documents
initiating the prosecution against petitioner.
The district court held firm that the the fraud on the court must have
been committed on the federal court by a federal officer of the court and it
was without authority to grant petitioner relief from judgement pursuant to
Buell v Anderson 48 F. App’x 491, 499 (6th Cir 2002)(citing Workman v Bell,
227 F. 3d 331, 336, 341 (6th 2000)(en banc).
The district court stated:
Petitioner's "fraud cn the court" claim is withcut merit, bemuse he failed
to show that
allegsd fraud was canrafcted ty en officer of this Cfcurt.
(erphasis sippLiaa). In order fix a claim of fraud cn the court to. suooead,
so as to permit relief fixm a state cxnvictim pursuant to Fad. R. Civ P. 60,
"the frai'H nust have been admitted by ai officer of the federal hebead trial
__ _ v Ardbrscn 48 F. App'x £)1, ^9 )6th Cir
cr ajponstifr courts. "Buell
Bell
2002) (citing WCrknen v__ 227 F.3d 331, 336, 341 (6th Cir. 2000)(en bar:)).
The assistant prosecutor was not acting as en officer of the federal habeas
court whai, while acting in his opacity he sigied the various documents
initiating tha pxeaca.iticn against petitims:/ thus/ the "feaud tpon the
initiating
court" exaction dips not apply to permit petitioner to relief from juljient.
Id Appx. B(2)p.3

The circuit court overlooked the district courts fact finding of fraud on
the court committed by the assistant prosecutor. The circuit court stated in
relevant part:
cn
12, 2019, Nelson filed a Federal Rule of Civil Prooedie 60(b)
notion fix yrfirf fixm judgment, arguing that the district ocuct gudge
rrmrriH-eri fraud by failing to adiess his allegation that a signature cn the
criminal caiplaint wee forged. Nalscn also argued that the district acurt
fe-iisd to address "an audio recording of a phone aaiwasatiai vhxe
[attorney] wee lying to [him] about tha notions that he was retained to
fHe[]" aid
to ircluds a letter as part of the recced.

3

:=£-2sS?.£3“S5gg
ccndbCt araxitad to a violation of the Sadceteet TnBixncea sndXbm**:
Crganizatims Act IB D.S.C § 1962(d), aid a corcporacy to overthrew ®
dbstccy tie rvntvari states governrent, in violatim of 18 U.S.C. § 2284.

Be district court dsniad team's Rule 60(b) irctim, finding that he Galea
to r>V**r that en officer cf the federal fefceas court caraatted feaud. It
noted that, to the extent that Nelscn alleged that the assistant p^semte

2SA w-s MSSSrS

Nedscn alleged that it failed to address his claim aha* the fcrged
oaiplaint, his notim vbs untimely because it vas not filed within cxeywc
SttedBllerqsd jtofcjrmt. Ihe district court <fedins3 to issue *<***&
daded leave to proceed 1FP m appel. NsOson ^aretes ^
is dbdeetad as Case Mafcec 20-1190. The district court also daned
Sen's notim disqualifying that its prior atexse rulings vere
insufficient to to/ judicial bias, kelson .
f
challenging the denial of his notim to disquali^, aid that appeal tes been
/wv,^ as case Nuiber 201210. Nelsm filed two CEA applications, vhich the
district court transferred to this court.
this court in Case t&nber

ISSiSll

that is rot discovered until veil after earlier gudgrmtissuad. saacn s
u±xn to rarefy a jurisdictional defect sinpiy argils tie nsatooftas
claim that the ariirdnal cnrplaint ires invalid fcasuss it was noc sigied indar
oath.
Case Nutter 20-1210. Nalscn

lieiSjislsi
ruling m his habeas petition. Appx. A*
ARGUMENT I

Did the circuit court commit a reversable error and
qrossly violate petitioner's Due Process when it (l;
overlooked the district court's fact-finding and its
determination that the assistant prosecutor did commit a
fraud on the court by signing the various documents
initiating the prosecution against petitioner te;
overlooked the district court's reasoning, contrary to
law/authority it cited, that it was without authority to
GRANT petitioner relief from judgment because the fraud
was not committed by a federal officer.
4

DISCUSSION:
Fed. R. Civ P. 52(a)(6) states in relevant part that a Circuit of Appeals
must not set aside a District Court’s findings of fact unless they are clearly
erroneous . Teva Pharma/ USA/ Inc v Sandoz/ Inc • / 574 US 318/ 135 S.Ct 831/ 190
LEd 2d 719 (2015).
Here, the Circuit Court diverted from the standard provided by Rule
certificate of
52(a)(2) in reviewing petitioner’s application for
appealability. The circuit court determined that petitioner was not entitled
to COA and relief from judgement was properly denied in its convenience of
overlooking the district court's finding of "fraud on the court" that the
assistant prosecutor did commit.
If the circuit court would not have overlooked the finding of fact by the
the burden of
district court the circuit court would have had overcome
providing that the district court applied Buell v Anderson 48 F. App'x 491/
494 (6th Cir. 2002) correctly to have denied petitioner relief from judgment.
Where in that case the Sixth Circuit court had established an exception that
if a state trial prosecutor commits a fraud on the state trial court mandates
an evidentiary hearing and relief from judgment will be permitted upon
conclusion that the habeas counsel was privy to the state trial prosecutor’s
fraud. Buell supra at 500.
Here, the circuit court would also have had to overcome the burden of
proving that petitioner did not satisfy the exception in Buell. In Buell the
petitioner had alleged that the state trial judge committed fraud on the court
accordingly his claim failed because the state s trial judge was not a federal

5

command. The 6th Circuit
officer nor was he under the prosecution's chain of
Court stated in pertinent part:

the state trial judge,
prosecution tearr... • • at 500.
that the assistant prosecutor
Here the district court positively declared
, Bueli v Anderson was appropriate
did commit a fraud on the Court. Therefore
fraud and permit petitioner relief from judgment.
authority to remedy the
to law denied the remedy. This error
the
district
court
contrary
However/
warrants reversal .

S«.e. ftp*. 1b

p.

the United States Constitution
The Fifth and the Fourteenth Amendment to
life, liberty, or property, without due
hold, "No person shall be deprived of
process of law."
bound by the district courts fact-finding and
circuit
court
is
The
violated petitioner's due process. The
overlooking of its findings of facts
attempt to reach the merit to disprove the
circuit court failed to make an
to Fed. R. Civ. P. 52(a)(6) resulted in
district court’s fact-finding pursuant
Beggerly 524 U.S. 38, 49, 118 S.Ct
a miscarriage of justice. United States v
1862, 141 L.Ed 2d 32 (1988).
fraud there is and once a fraud on
A fraud on the court is the most HATED
exist it MUST BE REMEDIED, Hazel-Atlas Glass
the court had been declared to
332 U.S. 238, 294 (1944), AND THERE IS NO EXCEPTION
Hartford
Empire
Co.,
Co. v
TO THIS RULE OF LAW.

6

THIS PETITION FOR WRIT OF CERTIORARI SHOULD BE GRANTED,
attention that the type of
Moveover , petitioner point out to this Court's
declared that the assistant
"fraud of the court" that the district court
various document initiating the
prosecutor committed by signing the
violation described in
prosecution against him reflect a Fourth Amendment
Kalina v Fletcher 522 D.S

118 (1997). See Apx B(2) p.3. Federal habeas courts

imprisoned in violation of the
to ensure that individuals are not
Collins, 506 U.S. 390,
Constitution, not to correct errors of fact. Herrera v

sit

400, 122 LEd 2d 203, 113 S.CT 8553 (1993).
privy to the state trial assistant

And if the Habeas counsel was not

its own motion, see
prosecutor's fraud it would have resolved the matter on
, instead it sought for the habeas court to
Kalina v Fletcher 522 D.S. at 122
and without probable cause to be
enforce the judgement obtained by fraud
and 14th Amendment right to the
sustain in violation of petitioner's 5th
United States Constitution.
The Fourth Amendment to the United States Constitution states:
The riqht of the people to secure in their persons,
houses> papers, and effects, against unresonable searches

. 508; 31 S.ct 704, 55 L.Ed
The Court held in Glusksman v Henkel 221 U.S
sufficient complaint on oath there is no
850 (1911) at 5, that Without a
PETITION FOR WRIT OF CERTIORARI SHOULD
jurisdiction to issue the warrant. THIS
be granted.

7

conflict with another Circuit
A. The Sixth Circuit Court of Appeals is in established
principle for a
Court of Appeals in regard to the well
jurisdictional challenge.
The D.S. Court of Appeals for the Fifth Circuit in Hamilton v McCotter,
772 F. 2d 171, 182, 183/ 184/ 185 (5th Cir. 1985), understand that a wholly
forged indictment would not confer criminal jurisdiction to the state trial
court and that the "conviction" would be void. In that case it was alleged
that the foreman's signature was forged and was grounds for a remand.
failed to recognize that petitioner's "forged
Here, the Sixth Circuit
complaint" claim (2) related to the jurisdiction of the convicting court and
time and Rule 60(b) does not
that a jurisdictional claim can be raised at any
jurisdictional challenge and that signature forged
and can not preclude a
voids the document that the signature lies on.
sixth Circuit Court of Appeals ignore this Court's precedents in
B. The
regards to the well established principle for a jurisdictional challenge.
The Sixth Circuit Court has ignored this Court's precedents hold that the
lack of subject-matter jurisdiction in the convicting court has long been a
basis for habeas relief. Ex part Lange 85 O.S. (18 Wall) 163; 21 LEd 872
(1973); Ex parte Siebold, 100 U.S. 371 (1880).
C. The Sixth, circuit Court of Appeal ignored this Court's precedent in regard
to the well established principle for correcting injustice.
authority that states that
The Sixth Circuit failed to cite any
claim via Rule 60(b)
petitioner is barred from raising a jurisdictional
alleging that his "felony complaint was forged," in which, the district court
determined that it was, while it addressed petitioner's claim (1) establishing
"the assistance prosecutor committed fraud on the court." Apx B (2) p. 3. The
Hartford-Empire Co. 332
circuit court however, cited Hazel-Atlass Glass Co v

8

U«S. 238/ 244 (1949)/ it consequently failed to ahere and follow this Court s
authority and principle to correct injustice. This Court held that appellate
court had both the duty and the power to vacate its own judgment and to give

the trial court appropriate directions. THIS PETITION FOR WRIT OF CERTIORARI
SHOULD BE GRANTED.
ARGUMENT

II

Did the circuit court commit a reversible error and
grossly violate petitioner's due process when it
overlooked the record and evidence that petitioner
presented to support his request to disqualify the
district court's judge for ignoring the Michigan Court of
Appeals ex post facto Law used to affirm his conviction?
DISCUSSION:
The circuit court overlooked petitioner's evidence that the district
court judge ignored the Michigan Court of Appeals ex post facto Law that
violated petitioner's due process . The Sixth Circuit in Olsen v McFaul 843
F.2d 918, 931 (6th Cir. 19e8) stated, 'In Bouie v Columbia 378 U.S. 347/ 12 L
Ed 894, 84 s.Ct 1697 (1964), the Supreme Court held that, whan a state
appellate court affirms a conviction by constructing a statute in a new and
unexpected manner, thereby making criminal what previously was not recognized
as such, the conviction violates the due process clause and must be reversed."
The Michigan Court of Appeals reasoned that a ssigned" complaint (rather
than a sworn

complaint)

satisfied the statutory requirement to confer

jurisdiction for the issuance for a warrant negates the Fourth Amendment to
the United States Constitution and is contrary to Gluakman v Henkel 221 US
508; 31 S.Ct 704, 55 L Ed 850 at 5 (1911), this Court held that:, without a
sufficient complaint on oath there is no jurisdiction to issue the warrant.
Ex. (3) pp 6, 7, 11.

9

Because the district court judge failed to correct the ex post facto law
that the Michigan court of Appeals had set in place as competent law to affirm
sufficient evidence and
petitioner's conviction, petitioner felt this was
cause to have the district court’s judge to be disqualified. However, the
circuit court overlooked this evidence stating:
Reasonable jurists also could not debate the district
court's conclusion that Kelson’s motion to recuse was
meritless, because his arguments were based solely upon
the district court's decision to deny habeas relief.
n TO] pinion formed by the judge on the basis of facts
introduced or events occurring in the course of uhe
current proceedings...do not constitute a basis for a bias
or partiality motion unless they display a deep-seated
favoritism or antagonism that would make fair judgment
impossible. Liteky v United States, 510_ U.S. 540, . 555
(1994). Nelson cited nothing outside of his current habeas
proceeding to support his allegation of bias, and he did
not set forth any facts to indicate that the districu
court judge ndisplay[ed] a deep-seated favoritism or
antagonism." Id Apx. A.
In Liteky supra, 510 U.S. at 554 this Court stated:
The fact that an opinion held by a judge derives form a
source outside judicial proceedings is not a necessary
condition for "bias or prejudice" recusal, since
predispositions developed during the course of a trial
will sometimes (albeit rarely) suffice.
Here petitioner did not have to "cite nothing outside of his current
habeas preceding to support his allegation of bias" pursuant to Lite^ supra,
the record can be used to recuse a judge. It's the circuit court, not the law,
that required petitioner to find facts outside of the record. Petitioner had
satisfied 28 U.S.C. 455(a). See Ex (4) and Ex. (3).
Petitioner, not the circuit court has the Fifth and Fourteenth Amendment
Constitutional DUE PROCESS RIGHT to use the law in whole or in part how he
sees fit. Where the law gives options to petitioner to use, the circuit court

10

to limit the law to its liking and doing so put
can not obstruct justice
resulted in this "grave miscarriage of
petitioner here at a disadvantage that
life and
justice" that is before this Honorable Court. It is petitioner’s
. Therefore/ a reversal
liberty that is here at stake/ not the circuit court s
and remand is required for this issue.
Constitution specifically
The Fifth Amendment to the United States
states:

sjsss*

ssuSTS

«

S o° p*Ac danger; not shall any parson be ^ect xor
tte sane offence to be twice pat in leopardy of life or
liirb: not shall be compelled in iMiy crrrinal c^e to tea
witness against himself nor be deprived of life/
or property, without due_ process of law: nor shall pr. ci
or
f0r £ubIIT use, witnout just
property be
compensation.
(emphasis added)
to the United States Constitution specifically
The Fourteenth Amendment
states:
All persons bom or naturalized in the United Sta^ and
subject to the jurisdiction thereof are citizens
the
SSXd States and of the State where
a*£
oll=11 „al.a nr enforce any law which shall abridge me
privileges or inrcunities of citizens of the United States;
nor shall ££ state deprive an*
—nron'or tvwithout due process of law. nor d-ny to a../
person^within its jurisdiction the equal protection o
e
laws.
(emphasis added)
THIS PETITION FOR WRIT OF CERTIORARI SHOULD BE GRANTED.

11

CONCLUSION
This district court relied on Buell v Anderson 48 F. App'x 491, 499 (6th
Cir. 2002 ), to deny petitioner relief from judgement and failed to recognize
that there was an

exception in Buell supra, to grant relief and petitioner

satisfied that exception.
in
The circuit court should not be allowed to have its
overlooked petitioner's complete
the space of omissions. The circuit court
relief from judgement. This Court
defense to the district court's denial for
its flagrant omission and its
must hold the circuit court accountable for
v Hartford-ftnprie Co.
injustice. This Court pursuant to Haze-Atlass Glass Co.
332 D.S 238 (1949) must issue an order and directions to the circuit court to
findings of fact for the
apply the correct remedy to the district couru s
"fraud on the court' it declared that the assistant prosecutor committed^ in
Fourth Amendment violation. Petitioner,
which, also resulted in a continual
therefore, respectfully requests that this Court GRANT CERTIORARI to resolve
these miscarriages of justice.
The circuit court ignored petitioner s complete defense to disqualify the
district court judge when it ignored petitioner's evidence that the district
court judge turned a blind eye to the Michigan Court of Appeals use of an ex
. Therefore, this request for
post facto Law and failed to correct such Law
certiorari should be GRANTED.
asks that this Court GRANT this
For these reasons, Petitioner Nelson
petition for a vnrit of certiorari.
Res] ictfully-submitted

Date
\J

1

D^ry-1 Du< Nelson #"3*18736
Petitioner In Pro Se
Kinross Correctional Facility
4533 W. Industrial Park Dr.
Kincheloe, MI 49788

12

*1-.

-3T.

v

vr-^= -

•=

"zzw^.-.'zr ••

APPENDIX A
U.S. COURT OF APPEALS JUNE 16# 2020
OPINION DENYING COA

